REGIONAL OFFICES
84 H A R L O W S T . 2 N D F L O O R
B A N G O R , M A I N E 04401
T E L : (207 ) 941-3070
F A X : (207) 941 -3075

A ARON M. F REY
ATTORNEY GENERAL

TEL:

(207 ) 626-8800

TTY USERS CALL MAINE RELAY

711

S T AT E OF M AIN E
O F F IC E OF TH E A T TO RN EY G EN ERAL
6 S TA T E H OUS E S TA TIO N
A U GUS TA , M AI N E 04333-0006
August 28, 2020

125 P R E S U M P S C O T S T . , S T E . 26
P O R T L A N D , M A I N E 04103
T E L : (207 ) 822-0260
F A X : (207) 822 -0259
14 A C C E S S H I G H W A Y , S T E . 1
C A R I B O U , M A I N E 04736
T E L : (207 ) 496-3792
F A X : (207) 496 -3291

May 18, 2021
Scott Harris, Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543-0001
Re:

Calvary Chapel of Bangor v. Janet T. Mills, Governor of Maine
No. 20-1346

Dear Mr. Harris:
I am writing to request a thirty-day enlargement of the deadline by which Respondent
must respond to Petitioner’s Petition for Writ of Certiorari.
Respondent initially waived her right to respond to the Petition. On May 10, 2021, the
Court requested a response to the Petition by June 9, 2021. Due to the extreme press of other
business, undersigned counsel anticipates that he will need additional time to prepare a response
to the Petition. Accordingly, Respondent requests that the deadline to respond to the Petition be
enlarged until July 9, 2021.
Undersigned counsel contacted Horatio G. Mihet, counsel for the Petitioner, regarding
this request, and he responded that Petitioner opposes this request. Petitioner, however, will not
be prejudiced by an extension. At issue are limits on the size of gatherings imposed in Maine by
executive order in response to the COVID-19 pandemic. As of May 24, 2021, there will be no
limit on the size of gatherings, so Petitioner will not be operating under any restriction during the
pendency of this case. See Executive Order 38 FY 20/20. 1
Very truly yours,
Christopher C. Taub
Chief Deputy Attorney General
cc:

Horatio G. Mihet, Esq.

Available at https://www.maine.gov/governor/mills/sites/maine.gov.governor.mills/files/inlinefiles/EO%2096%2038.pdf
1

